No. 20-301
IN THE SUPREME COURT OF THE UNITED STATES
_________________
TIMOTHY B. HENNIS, PETITIONER
v.
UNITED STATES OF AMERICA
(CAPITAL CASE)
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE UNITED STATES IN OPPOSITION, via e-mail and first-class mail,
postage prepaid, this 9th day of December 2020.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 5,930 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
December 9, 2020

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
December 9, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0301
HENNIS, TIMOTHY B.
USA

MARK C. BRUEGGER
AIR FORCE LEGAL OPERATIONS AGENCY
1500 WEST PERIMETER ROAD
SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4782
MARK.C.BRUEGGER.CIV@MAIL.MIL
TIMOTHY GERARD BURROUGHS JR.
DEFENSE APPELLATE DIVISION, UNITED
STATES ARMY LEGAL SERVICES AGENCY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060
703-693-0656
TIMOTHY.G.BURROUGHS.MIL@MAIL.MIL

